No.

In the Supreme Court of the United States

John Hsu, Petitioner,
v.
City of Berkeley, Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, the undersigned, hereby
certify that the Petition for a Writ of Certiorari in the foregoing case contains 2,671
words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 19, 2019.

— tUJohn Hsu
Petitioner in pro se
P. O. Box 9034
Berkeley, California 94709
shihlohsu@gmail.com
(510) 841-5992

RECEIVED j
OCT 3 - W' 3 !

